CARDMEMBER AGREEMENT

Please take the time to review the following important information about your Account and retain it for
future reference. This document, including the accompanying Rates and Fees Table and the Additional
Terms of Your Cardmember Agreement, is an agreement between you, the Cardmember, and us,
KeyBank National Association, and is referred to throughout this document as the "Cardmember
Agreement" or the "Agreement." If you have any questions, please call us using the number on the back
of your Card or on your billing statement.
Your Agreement and Promise to Pay: By using the Account, making a payment on the Account, or
signing an application for any Card we send you, you agree to the terms of this Agreement. You agree to
pay us all amounts that we lend to you on your Account, together with Interest Charges and fees as
provided in this Agreement.

YOUR ACCOUNT TERMS
IMPORTANT TERMS
You and your

We, us, our and KeyBank

Credit Limit

Authorized Users

WHAT IT MEANS

HOW IT AFFECTS THE
ACCOUNT
All persons who applied for the
If there are joint Cardmembers, we
Account or who are liable on the may send communications to
Account by any other means
either of you, we may disclose
information about the Account to
either of you, and we may accept
instructions from either of you
(even if you have a disagreement).
KeyBank National Association
We are the creditor of your
Account and the issuer of your
Card.
Your credit limit is the maximum We will advise you of the total
amount that you can have
credit limit on your Account when
outstanding on your Account at
we first send you your Card and
any time. You agree not to request when we post it on your monthly
any transactions that would cause billing statement. Your Cash
your Account balance to exceed Advance limit is only a portion of
the credit limit. You are
your total available (unused) credit
responsible for balances on your limit. Your total credit limit and
Account including amounts
Cash Advance limit may change
charged in excess of your credit from time to time. We will notify
limit.
you of any such changes through
your billing statement or by
sending you a separate notice,
which may be after the change
occurs. If no separate Cash
Advance limit is listed on our
billing statement, then the amount
of your credit limit available for
Cash Advances is your total credit
limit. We may cancel, change, or
rescind your credit availability at
any time. We may approve a
transaction that causes your
Account balance to exceed the
credit limit, but we do not treat
such a transaction as a request for
an increase in your credit limit.
You are responsible for any use of If you request, we may issue
your Account by an authorized
Cards that access your Account to

user or anyone else that you
permit to use your Account. You
must notify us to revoke an
authorized user's permission to
use your Account. You are
responsible to recover from that
authorized user and destroy any
Cards, checks and other devices
that can be used as a means of
accessing your Account.
If your Account has an Annual
Membership Fee, the amount of
the fee is listed in the Rates and
Fees Table. You are responsible
for paying the fee every year your
Account is open or until your
Account is closed and paid in full.

Annual Membership Fee

your authorized users. If you
revoke an authorized user, we
may close your Account and issue
a new Card(s) with a different
Account number.

We will add your annual fee to
your monthly billing statement
once a year, whether or not you
use your Account. Information is
provided below under
Authorization of
Transactions/Closing the Account
explaining how you can cancel
your Account to avoid future
annual fees.

IMPORTANT DEFINITIONS
Cash Advance
The following transactions will be treated as Cash Advances: all advances to
get cash over the counter, through an ATM, or other "cash-like" transactions
(such as purchasing a money order, traveler's check, casino betting chip, or a
lottery ticket) as determined by us. We sometimes call these Cash
Equivalents.
Daily Periodic Rate (DPR) The daily periodic rate for a given balance is equal to the APR for that
balance divided by 365. It is a daily interest rate.
Payment Due Date
This is the date by which we must receive the minimum payment in order for
it to be on time. Your monthly billing statement will list the Payment Due
Date.
Default
An Account will be in default if:
1) you fail to make at least the minimum payment when due; 2) you violate
any other provision of this Agreement; 3) we believe you may be unwilling or
unable to pay your debts on time; 4) you file for bankruptcy; or 5) you
become incapacitated or die.
If your Account is in default, we may close your Account or terminate or
suspend your credit privileges without notice and require full payment of your
outstanding balance immediately.

USING YOUR ACCOUNT
You may use your Account only for personal, family or household purposes. You may not use your
Account for illegal purposes, and you may not use your Account for internet gambling (even if legal).
However, you are still responsible for any transactions that you enter into in violation of this Agreement.
USE
Purchases

Balance Transfers and Fees

WHAT IT MEANS

HOW IT AFFECTS THE
ACCOUNT
You may use the Account to buy We authorize charges to your
goods and services.
Account in accordance with the
terms of the Agreement.
You can transfer balances to your We permit Balance Transfers from
Account by contacting us. We will most accounts issued by other

charge a Balance Transfer fee on
the amount of each Balance
Transfer, as set forth in the Rates
and Fees table.
Cash Advances and Fees

You may obtain cash from ATMs
or at banks. We will charge a
Cash Advance fee or Cash
Equivalent fee on the amount of
each Cash Advance, as set forth
in the Rates and Fees table.

Checks and Fees

You may use checks provided by
us to access your Account
(sometimes referred to as
"convenience checks"). Checks
will be added to your Purchase
balance (but there is no grace
period to avoid interest charges).

banks. We do not permit Balance
Transfers from other accounts or
loans with us or any of our
affiliates.
We treat certain transactions as
Cash Advances. See the Cash
Advance section under Your
Account Terms, above.

We may provide checks for your
use; we have the right not to pay a
check for any reason. You may
not use a convenience check to
make a payment on the Account
or any other Account with us.

We will charge a Convenience
Check Advance Fee on the
amount of each Convenience
Check Advance, as set forth in the
Rates and Fees table.
Overdraft Protection Advances
and Fees

You may set up this Account to
cover overdrafts on your checking
account at KeyBank ("Checking
Account"). Overdraft Protection
Advances ("OD Advances") will be
treated as Cash Advances.

We allow your Card Account to be
linked to a KeyBank Checking
Account. Only one OD Advance
will be made each day. The terms
of this Agreement and your
checking account agreement will
apply. In order to link your Card
Overdraft Protection Set
Account to your Checking
up. Overdraft protection is
Account, all persons who applied
typically available within ten
for the Card Account or who are
business days of receipt of the
request. To confirm your request liable on the Card Account must
for overdraft protection has been be owners of the Checking
Account. If at any time for any
processed and is available:
1. Call or visit your local branch. reason the persons who applied
2. Check your account at Key.com for the Card Account or who are
liable on the Card Account and the
on the financial details tab.
owners of the Checking Account
3. Call our Client Satisfaction
are different, your right to take OD
Center at 1-800-KEY2YOU (1800-539-2968) or for our hearing Advances will terminate.
impaired clients TDD/TTY 1-800- At the end of each business day,
539-8336.
an automatic OD Advance will be
made on your Card Account when
We will charge an Overdraft
the total amount of withdrawals
Protection Transfer Fee to your
from your Checking Account made
Card Account each day an
during the day and service
Overdraft Protection Advance
charges we post to your Checking
occurs as set forth in the Rates
Account for the day, exceed the
and Fees Table.
amount of funds in your Checking
Account that is available for
withdrawal. You request that these

automatic OD Advances be made
and agree that the amount of the
OD Advances will be advanced
from your Card Account up to the
amount that is available under
your Cash Advance limit. The
Cash Advance limit amount used
for authorization of OD Advances
is calculated as of the end of the
prior business day and may be
updated with current day
information if available. Cash
Advances occurring during the day
will reduce the amount of the Cash
Advance limit available for OD
Advances. The automatic OD
Advance will equal the lesser of
the amount needed to cover the
unpaid amount of withdrawals and
service charges in your Checking
Account, or the amount of
available funds under your Cash
Advance limit, rounded up to the
nearest $50.00 increment. Please
note that we may pay items into
overdraft, at our discretion, and
charge an overdraft fee on your
Checking Account if you do not
have available funds under your
Cash Advance limit for an OD
Advance of the total overdraft
amount.
If you fail to properly maintain your
accounts, in addition to other
rights and remedies we have, we
may terminate your Overdraft
Protection. You may cancel the
Overdraft Protection services at
any time by giving us written
notice at the address printed on
your Card Account monthly
statement. We may cancel your
Overdraft Protection and stop
making OD Advances at any time.
Recurring Transactions

You may authorize a third party to
bill charges on a recurring basis to
your Account. To withdraw your
authorization, you must contact
the third party. If your Account is
closed or suspended, your
Account number is changed, or to
withdraw authorization, you will
need to contact the third party.

We are not responsible for
recurring transactions if your
Account is closed, suspended, or
the Account number changes. You
agree that we may (but are not
required to) provide the third party
your current Account status, Card
number and/or expiration date to
facilitate payments.

Promotions

You may receive special offers
related to your Account.

Any special offer is subject to this
Agreement, unless specified
otherwise.
Rewards
If your Account provides you with We will provide you with all
the opportunity to earn rewards, information and terms about your
points may be redeemed for brand rewards separately. We will
named merchandise, gift cards,
include on your billing statement
travel rewards, or other
all rewards you have earned.
redemption items as we determine
from time to time.
Foreign Exchange Rate
Mastercard International
("Mastercard") will convert
transactions made in a foreign
country using a governmentmandated or wholesale rate in
effect on the processing date
(which may differ from the rate on
the date of your transaction). The
rate used may differ from the rate
that Mastercard actually receives.
Authorization of
You may close your Account at
We may refuse to authorize any
Transactions/Closing the Account any time by notifying us either in transactions at our sole discretion,
writing at the address shown on even if there is sufficient available
your billing statement or by phone credit. We are not responsible for
at the number provided on your
any losses associated with a
billing statement. We will not
declined transaction. We may
honor any convenience check or close your Account or terminate
authorize any transactions after
your credit privileges at any time
your Account is closed. You
for any reason, subject to
remain responsible for any
applicable law. Your Account
balance on your Account.
balance will continue to accrue
Interest Charges and fees and
remain subject to all terms of this
Agreement. If we do so, you may
not use your Card or any checks
we have issued.

MAKING PAYMENTS
You will receive a billing statement each month, if one is required. It will show your minimum payment and
the Payment Due Date, and will provide instructions for making your payment.
IMPORTANT INFORMATION
Payment Instructions

WHAT IT MEANS

HOW IT AFFECTS THE
ACCOUNT
You must follow the payment
As long as you make your
instructions provided on your
payment in accordance with the
monthly billing statement. All
instructions on your billing
payments made by check must be statement by the date and time
drawn on a U.S. financial
payments are due, we will credit
institution in U.S. Dollars. You
your payment as of the day it is
authorize us to either use
received. We may accept and
information from your check to
process late, partial and payments
make a one-time electronic fund marked as "paid in full" without
transfer from your account or to
losing our rights under this
process the payment as a check Agreement. Any such payment
transaction.
must be sent to the special

address identified on your
statement.
Minimum Payment
You agree to pay at least the
We will calculate your minimum
minimum payment when due. You payment based on the method
also agree to pay any past due
described in the Additional Terms
amounts and also any amounts in of Your Cardmember Agreement.
excess of your credit limit when
The minimum payment will appear
billed on your monthly billing
on your monthly billing statement,
statements or sooner if we ask.
and may include any past due
amounts and any amounts in
excess of your credit limit.
How to Avoid Paying Interest on • You need to pay in full on or
Except as described in the column
Purchases and When We Begin to before the Due Date the "New
on the left, we add new Purchases
Charge Interest
Balance" on your Bill in order to
to your Account, and they begin to
receive a Grace Period on your
accrue Interest Charges, on the
Purchases. As long as you
date of the transaction.
continue to pay the entire "New
Balance" on your Bill on or before There is no grace period for
Balance Transfers or Cash
the Due Date each consecutive
Billing Period, your Purchases will Advances. We add new Balance
receive a Grace Period. If you do Transfers, Overdraft Protection
not pay your Bill in full (including Advances, Checks or Cash
Advances to your Account no
the amount of any special
promotions, Convenience Check earlier than the date of the
transaction (for Checks, the date
offers, etc.), you will lose your
the payee deposits the Check).
Grace Period.
We may choose to add fees to
• If you lose your Grace Period by your Account on the date of the
making only a partial payment that related transaction, the date they
is at least equal to the Minimum are posted, or the last day of the
Payment due on or before the Due billing period.
Date, then in the next Billing
Period, we will apply your partial Amounts added to your Account
payment as of the first day of that remain subject to Interest Charges
until paid in full.
next Billing Period.
• If you lose your Grace Period,
you may earn it back by paying
the entire "New Balance" listed on
any subsequent Bill. Once you
have paid the New Balance on
your Bill in full on or before its Due
Date, you will receive a Grace
Period for any Purchases made in
the next Billing Period (subject to
loss as set forth above). Note: in
this section, the "next" Billing
Period means the Billing Period
which started immediately
following the Billing Period for
which you paid your Bill in full on
or before the Due Date, which Due
Date falls in the Billing Period
identified in this section as the
"next" Billing Period.

Application of Payments

Credit Balances

If you make more than the
minimum payment when due, the
excess above the minimum
payment is applied to balances
with the highest APRs first.

We may apply the amount of your
payment less than or equal to your
minimum payment and any credits
to your Account in any way we
choose. We generally apply these
payments to lower APR balances
first, which means you may pay
higher Interest Charges.
You may request a refund of credit If no refund is requested, we will
balances at any time.
apply credit balances to new
transactions, unless prohibited by
law.

INTEREST CHARGES
CALCULATION
We calculate the Daily
Balance for each day

HOW WE DO THIS
by taking the beginning balance for each type of transaction each day, adding
any new transactions and any accrued but unpaid interest for the prior day,
and then subtracting any payments and/or credits and other adjustments. We
treat any daily balance that is a credit balance as a zero balance.
We calculate the Average by adding all of the Daily Balances for each day in the billing period and then
Daily Balance
dividing by the total number of days in the billing period.
We calculate the Interest by applying the daily periodic rate (DPR) for that balance to the "average daily
Charges for each balance balance" for that balance. We multiply the result by the number of days in the
billing cycle. That gives us the total Interest Charges for that balance for that
billing period.
We add the Interest
by adding the Interest Charges to the balance to which it applies (for example,
Charged to the Account we add Interest Charges on the Purchases balance to the Purchases
balance). Cash Advance, Overdraft Protection Transfer, and convenience
check fees are added to the Cash Advance balance and Balance Transfer
fees are added to the Balance Transfer balances, as applicable, and all other
fees are added to the Purchases balance.
We add the Minimum
by adding the amount set forth in the Rates and Fees table to one or more of
Interest Charge
the categories of transactions in which there are balances. We apply the
Minimum Interest Charge for any month where Interest Charges are due but
are calculated as less than the Minimum Interest Charge.

FEES AND OTHER ACTIONS
There may be times when circumstances result in a fee or other action being assessed on the Account.
The Rates and Fees Table lists the amounts of these fees. All such fees will be added to the Purchase
balance, unless otherwise indicated. Additional fees for special services you request may apply. You will
be advised of the amount of such fees at the time of your request.
TO AVOID
Collections

ACTIONS YOU MUST TAKE
Do not default.

FAQ

WHAT YOU MUST DO

WHAT WE WILL CHARGE YOU
If the Account is in default, we
may take the actions described
above in the Default section under
Important Definitions, above.

HOW IT AFFECTS THE
ACCOUNT
My Card is lost or stolen, or my
Contact us immediately and stop You will not be liable for any
Account has been compromised? using your Account. Contact us at unauthorized use that occurs after
the address or telephone number you notify us. You may, however,
be liable for unauthorized use that

My Account is closed or
suspended?
My name, address, telephone
number of other information has
changed.

listed on your billing statement or occurs before your notice to us. In
Card.
any case, your liability will not
exceed $50.
You must still repay all amounts You remain responsible for your
you owe under this Agreement.
balance.
Notify us of any change.
We may also ask you to provide
us updated financial information
about you, and you agree to do
so.

ARBITRATION AND WAIVER OF JURY TRIAL RIGHTS
This Arbitration Provision will not apply to new accounts opened on or after October 3, 2017 by
Covered Borrowers as such term "Covered Borrower" is defined by the Military Lending Act, 10
U.S.C. 987 e. seq. and its implementing regulations.
Arbitration Provision. This Arbitration Provision sets forth the circumstances and procedures under which
a Claim or Claims (as defined below) may be arbitrated instead of litigated in court. This Arbitration
Provision supersedes and replaces any existing arbitration provision between you and us. This
Arbitration Provision will apply to the Account(s) unless you notify us in writing that you reject
the Arbitration Provision within 60 days of opening the Account(s). Send your rejection notice to
KeyBank N.A., PO Box 93752, Cleveland, Ohio 44101-5752. Your notice must be legible and
include your name, the names of any joint account holders and the account number(s), the last
four digits of your card number, the date of your notice, your address (street, city, state and zip
code), your daytime telephone number, and must be signed by at least one of the joint account
holders. Your rejection notice should not include any other correspondence. Calling us to reject
the Arbitration Provision or providing notice by any other manner or format than as described
above will not operate as a rejection of this Arbitration Provision and consequently this
Arbitration Provision will become part of this Agreement. Rejection of this Arbitration Provision
does not serve as a rejection of any other term or condition of the Agreement with us governing
your Account(s).
As used in this Arbitration Provision, the word "Claim" means any claim, dispute, or controversy between
you and us arising from or relating to this Agreement or the Account(s), including without limitation, the
validity, enforceability, or scope of this Arbitration Provision or this Agreement. "Claim" or "Claims"
include claims of every kind and nature, whether pre-existing, present or future, including without
limitation, initial claims, counterclaims, cross-claims, and third-party claims, and claims based upon
contract, tort, fraud, and other intentional torts, constitutions, statutes, regulation, common law, and
equity (including, without limitation, any claim for injunctive or declaratory relief). The word "Claim" or
"Claims" is to be given the broadest possible meaning and includes, by way of example, and without
limitation, any claim, dispute, or controversy that arises from or relates to (a) any Account subject to the
terms of this Agreement (b) any electronic funds transfer from or to any account (c) advertisements,
promotions, or oral and written statements related to this Agreement or the Account, (d) your application
for the Account; and (e) the collection of amounts owed by you to us.
This Arbitration Provision will not apply to Claims previously asserted, or which are later asserted, in
lawsuits filed before the effective date of this Arbitration Provision or any prior arbitration provisions
between you and us, whichever is earlier. However, this Arbitration Provision will apply to all other
Claims, even if the facts and circumstances giving rise to the Claims existed before the effective date of
this Arbitration Provision.
Any Claim shall be resolved, upon the election of you or us, by binding arbitration pursuant to this
Arbitration Provision and the applicable rules of either the American Arbitration Association or
J.A.M.S/Endispute in effect at the time the Claim is filed (the "Arbitration Rules"). You may select one of
these organizations to serve as the arbitration administrator if you initiate an arbitration against us or if
either you or we compel arbitration of a Claim that the other party has brought in court. In addition, if we
intend to initiate an arbitration against you, we will notify you in writing and give you twenty (20) days to
select one of these organizations to serve as the arbitration administrator. If you fail to select an

administrator within that twenty (20)-day period, we will select one. In all cases, the arbitrator(s) should
be a lawyer with more than ten (10) years of experience or a retired judge. If for any reason the selected
organization is unable or unwilling or ceases to serve as the arbitration administrator, you will have
twenty (20) days to select a different administrator from the above list; if you fail to select a different
administrator within the twenty (20)-day period, we will select one. In all cases, a party who has asserted
a Claim in a lawsuit in court may elect arbitration with respect to any Claim(s) subsequently asserted in
that lawsuit by any other party or parties.
IF ARBITRATION IS CHOSEN BY ANY PARTY WITH RESPECT TO A CLAIM, NEITHER YOU NOR
WE WILL HAVE THE RIGHT TO LITIGATE THAT CLAIM IN COURT OR HAVE A JURY TRIAL ON
THAT CLAIM, OR TO ENGAGE IN PRE-ARBITRATION DISCOVERY EXCEPT AS PROVIDED FOR IN
THE APPLICABLE ARBITRATION RULES. FURTHER, YOU WILL NOT HAVE THE RIGHT TO
PARTICPATE AS A REPRESENTATIVE OR MEMBER OF ANY CLASS OF CLAIMANTS
PERTAINING TO ANY CLAIM SUBJECT TO ARBITRATION EXCEPT AS SET FORTH BELOW. THE
ARBITRATOR'S DECISION WILL BE FINAL AND BINDING. YOU UNDERSTAND THAT OTHER
RIGHTS THAT YOU WOULD HAVE IF YOU WENT TO COURT MAY ALSO NOT BE AVAILABLE IN
ARBITRATION. THE FEES CHARGED BY THE ARBITRATION ADMINISTRATOR MAY BE
GREATER THAN THE FEES CHARGED BY A COURT.
There shall be no authority for any Claims to be arbitrated on a class action or private attorney general
basis. Furthermore, arbitration can only decide your or our Claim(s) and may not consolidate or join the
claims of other persons that may have similar claims. There shall be no pre-arbitration discovery except
as provided for in the applicable Arbitration Rules. Any arbitration hearing that you attend shall take place
in the federal judicial district of your residence. At your written request, we will pay all fees charged by the
arbitration administrator for any Claim(s) asserted by you in the arbitration, after you have paid an
amount equivalent to the fee, if any, for filing such Claim(s) in state or federal court (whichever is less) in
the judicial district in which you reside. (If you have already paid a filing fee for asserting the Claim(s) in
court, you will not be required to pay that amount again.) If the arbitrator issues an award in our favor,
you will not be required to reimburse us for any of the fees we have previously paid to the administrator
or for which we are responsible. Each party shall bear the expense of that party's attorneys', experts',
and witness fees, regardless of which party prevails in the arbitration, unless applicable law and/or this
Agreement gives you the right to recover any of those fees from us. In the event you do not prevail in the
arbitration, we will not seek to recover our attorneys', experts' or witness fees from you. This Arbitration
Provision is made pursuant to a transaction involving interstate commerce, and shall be governed by the
Federal Arbitration Act ("FAA"), 9 U.S.C. Sections 1 et. seq. The arbitrator shall apply applicable
substantive law consistent with the FAA and applicable statutes of limitations and shall honor claims of
privilege recognized at law, and at the timely request of any party, shall provide a brief written
explanation of the basis for the award. In conducting the arbitration proceeding, the arbitrator shall not
apply the federal or any state rules of civil procedure or rules of evidence. Judgment upon the award
rendered by the arbitrator may be entered in any court having jurisdiction. The arbitrator's decision will be
final and binding, except for any right of appeal provided by the FAA and except that, if the amount in
controversy exceeds $10,000.00 any party can appeal to a three-arbitrator panel administered by the
arbitration administrator which shall reconsider de novo (i.e. without regard to the original arbitrator's
findings) any aspect of the initial award requested by the appealing party. The decision of the panel shall
be by majority vote. The costs of such an appeal will be borne by the appealing party regardless of the
outcome of the appeal.
This Arbitration Provision shall survive termination of all Accounts subject to this Agreement. If any
portion of this Arbitration Provision is deemed invalid or unenforceable under any law or statute consisted
with the FAA, it shall not invalidate the remaining portions of this Arbitration Provision or the Agreement.
In the event of a conflict or inconsistency between the applicable Arbitration Rules and this Arbitration
Provision, this Arbitration Provision shall govern.
Contacting Arbitration Administrators
If you have a question about the arbitration administrators mentioned in this Arbitration Provision or
would like to obtain a copy of their Arbitration Rules or fee schedules, you can contact them as
follows: American Arbitration Association, 1633 Broadway, 10th Floor, New York, New York 10019,
www.adr.org, (800) 778-7879. Commercial or Consumer Rules, J.A.M.S./Endispute, 222 South

Riverside Plaza, Suite 1850, Chicago, IL 60606; www.jamsadr.com (800) 352-5267, Financial Services
Arbitration Rules and Procedures.
OTHER TERMS OF THE RELATIONSHIP
Communications
We may send Cards, statements, and other communications to you at any
mailing or email address in our records. You expressly authorize KeyBank
National Association and its service providers, affiliates, agents, successors,
assigns, and third party debt collectors to contact you on any of your mobile
phone numbers, whether you provide those numbers to KeyBank (now or in
the future) or whether KeyBank identifies those mobile numbers via other
sources including, but not limited to, those obtained via skip tracing or those
provided by third parties. This consent applies to all calls including text
messages or telephone calls made via or using an automatic telephone
dialing system, autodialer, and/or an automated or prerecorded voice. This
consent applies to any and all accounts including, but not limited to,
depository accounts, loans, lines of credit, credit cards, or other relationships
you have with KeyBank (including business accounts upon which you are
identified as a point of contact or an authorized user), including those you
already have or any that you may obtain in the future, and this consent
permits calls regardless of their purpose. These calls and messages may
incur access fees from your cellular provider.
We may also send an email to any address where we reasonably believe we
can contact you. Some of the legal purposes for calls and messages include:
suspected fraud or identity theft, obtaining information; transaction on or
servicing of the Account; collecting on the Account, and providing you
information about product and services. Notify us immediately of any
changes to your contact information using the address or phone number
shown on your billing statement.
Telephone Monitoring
Credit Information

Enforcement

Applicable Law

Amendments

Assignment

We may listen to and record your telephone calls with us.
We may obtain and review your credit history from credit reporting agencies
and others, including in connection with the servicing and collection of your
Account. We may also provide information about your Account to credit
reporting agencies and others. We may provide information to credit
reporting agencies about this Account in the name of an authorized user. If
you think we provided incorrect information, write to us at the address
provided on your billing statement and we will investigate.
We may choose to delay enforcing or waive any of our rights under this
Agreement. We can delay enforcing or waive any of our rights without
affecting our other rights. If we waive a right, we do not thereby waive the
same right in other situations.
This Agreement and the Account will be governed by federal law, and to the
extent state law is applicable, the laws of the state of Ohio, and these laws
will apply no matter where you live or use this Account.
We may change or terminate all or any part of this Agreement, including
APRs and fees, at any time. We may also add new terms or delete terms.
Any changes will be in accordance with applicable law, and we will provide
notice as required by law.
We may sell, assign or transfer the Agreement and the Account or any
portion thereof without notice to you, and the purchaser, assignee, or
transferee shall have the same rights as we do under this Agreement. You
may not sell assign, or transfer the Account.

Severability

Restrictions on Use

Except as specifically provided in the arbitration section above, if any
provision of this Agreement is finally determined to be void or unenforceable
under any law, rule or regulation, all other provisions of this Agreement will
remain valid and enforceable.
KeyBank may restrict use of your Card in any jurisdiction or country where
such use would be contrary to U.S. law or regulation, or which is identified as
presenting a high risk of fraud. Please call 1-877-634-2968 for the current list
of countries where transactions are restricted.

YOUR BILLING RIGHTS - Keep this document for future use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write us at the address shown on your billing statement .
In your letter, give us the following information.
•
•
•

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of the problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.

You must contact us:
•
•

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on
the amount you think is wrong.
You must notify us of any potential errors in writing, You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.

Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have alre ady
corrected the error.

2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest
on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting you are questioning your bill. We must tell you the name of anyone to whom we reported you
as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of these rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold the good or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from
an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at
the address shown on your billing statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do
not pay, we may report you as delinquent.
Additional Disclosures for Residents of Specific States
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally
available to all credit worthy customers and that credit reporting agencies maintain separate credit
histories on each individual upon request. The Ohio Civil Rights Commission administers compliance
with this law.
New York and Maine Residents: You agree to give us permission to obtain one or more credit reports
from consumer reporting agencies in connection with the application, any transaction or extension of
credit that may result from this application, and on an ongoing basis, for the purposes of performing a
routine and occasional verification of credit on the Account, taking collection action on the Account, or for
any other legitimate purposes associated with the Account. Upon your request, you will be informed of
whether or not a consumer credit report was ordered, and if it was, you will be given the name and
address of the consumer reporting agency that furnished the report.
New York Residents: New York residents may contact the New York State Department of Financial
Services by telephone at 1-800-342-3736 or visit its website (www.dfs.ny.gov/consumer/creditdebt.htm)
for free information on comparative credit card rates, fees.
Vermont Residents: By signing below you consent to KeyBank obtaining and verifying information
about you (which may include a consumer credit report) that we deem necessary in evaluating your loan
application, including information about your employment, banking, and credit relationships. If your
application is approved and the loan is made, you also authorize us to obtain additional credit reports or
other information about you in connection with reviewing the account, increasing the credit line on the
account, for the purpose of taking collection action on the account, or for other legitimate purposes
associated with the account.
Utah Residents: As required by Utah law, you are hereby notified that a negative credit report reflecting
on your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your
credit obligations.

Key Private Bank Mastercard® Credit Card
As of August 30, 2021
Interest Rates and Interest Charges

Annual Percentage Rate (APR) for Purchases

00.00 % Introductory APR for the
first 6 monthly billing cycles. After that, your APR

11.99 %

will be
. This APR will vary with the
market based on Prime Rate.
APR for Cash Advances

23.99 %.This APR will vary with the market based
on Prime Rate.

APR for Balance Transfers

00.00 % Introductory APR for the first 6 monthly
billing cycles following account opening when
balance is transferred within the first 60 days
following account opening. After that, your APR will
be 11.99 %. This APR will vary with the market
based on Prime Rate.

Paying Interest

Your payment due date is at least 25 days after the
close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire
balance by the due date of each month. We will
begin charging interest on cash advances,
convenience check advances and balance
transfers on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no
less than $00.50
.

For Credit Card Tips from the Consumer Financial
Protection Bureau

To learn more about factors to consider when
applying for or using a credit card, visit the website
of the Consumer Financial Protection
Bureau http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

$195.00 ($100.00 for each additional card
added to the account)

Transaction Fees:
Balance Transfer Fee

Either $10.00 or 4% or of the amount of each
transaction, whichever is greater.

Cash Advance Fee

Either $10.00 or 5% of the amount of each
transaction, whichever is greater.

Convenience Check Advance Fee

Either $10.00 or 4% of the amount of each
transaction, whichever is greater.

Cash Equivalent Fee

Either $10.00 or 5% of the amount of each
transaction, whichever is greater.

Overdraft Protection Transfer Fee

$00.00

How We Calculate Your Balance: We use a method called the average daily balance method (including
new purchases).

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your Cardmember Agreement.
Loss of Introductory APR: If you make a late payment, we may end offering you a lower introductory
APR and begin charging you the higher APR (for both Purchases and Balance Transfers) that is specified
in the table above and scheduled to take effect after the introductory APR is no longer effective.

KeyBank Rewards® Program Terms and Conditions
These terms and conditions (the "Program Rules") are provided by KeyBank National Association ("KeyBank") to govern the use
of the KeyBank Rewards® Program (the "Program"). Services provided by the KeyBank Rewards Program are additionally
governed by any other separate agreement(s) Customer may have with KeyBank, and any amendments or changes made to these
Program Rules.
By enrolling in the Program, Customer agrees to be bound by these Program Rules. From time to time we may change the Program
Rules. When any change is made, we will post revisions at our website and/or we will notify you in writing, as applicable. It is your
responsibility to review the Program Rules to be aware of any changes. Your continued participation or failure to terminate your
participation in the Program will evidence your acceptance of the changes and your agreement to be bound by them.
"Customer," "you" or "your" shall mean the person, persons or entities in whose name the Rewards Account is carried on the books
of KeyBank and shall include the masculine and feminine genders and the plural as well as the singular wherever the context s o
permits. "Us," "our" and "we" shall mean collectively KeyBank and all of its affiliates and subsidiaries. "Consumer" means an
individual non-business Customer and a "Business" means a business Customer. Notices and other communications to a Business
Customer will be made to the Business.
I. Reward Programs
Under the Program, you may earn and use points ("Rewards Point(s)") to obtain a variety of rewards ("Rewards") including
merchandise, gift cards, travel rewards, cash back and domestic U.S. air travel rewards as full payment for goods or services
available through us. You may earn Rewards Points as set forth in Section III below.
The only products eligible for this Program are credit cards as defined in Section II.2.
If you are enrolled in the Program, you will have a rewards account ("Rewards Account") as further described in Section IV.1.
II. Enrollment & Access to Rewards Account.
1. Generally. To receive benefits under the Program, enrollment is necessary. Once a product is enrolled, all Signers of such
product are automatically enrolled into the Program.
2. Enrollment. Enrollment enables Rewards Points to begin accruing relative to an Enrolled Product and/or an Enrolled Signer.
a. Eligible Credit Card Accounts. All Signers on a credit card issued by KeyBank on or after May 24, 2013, and bearing a
plastic number with the first 6 digits of 524924, 519945, 552356, or 519731, (herein an "Eligible Credit Card"), are
automatically enrolled in the Rewards Program and the Eligible Credit Card is also automatically enrolled. From time to time
KeyBank may determine that other credit card accounts, which it has acquired or which it may hereafter acquire, are eligible
to join the Program, subject to additional terms and conditions. Once enrolled, an Eligible Credit Card may be referred to as
either and Enrolled Credit Card specifically or an Enrolled Product generally.
b. Conversion Credit Card Accounts. Key has converted, and will from time to time convert various credit card portfolios
to KeyBank's Rewards Program all as set forth in Section II of Schedule II.2 (herein the "Conversion Accounts"). All
Conversion Accounts will both be a subset of Eligible Credit Cards and unless specifically designated otherwise, will have
the same terms and conditions of all other Eligible Credit Cards.
3. Access. You may access your Rewards Account by the following methods, subject to the limitations set forth below.
a. Electronic access. You must be enrolled in Key's electronic online banking which is known as Online Banking for consumer
customer access and KeyBank Business Online for business customers. For information on how to access KeyBank's Online
Banking or KeyBank Business Online website, and enroll if you are not yet enrolled, please visit www.key.com. Once you have
entered Key's Online Banking website or KeyBank Business Online, you can click on the rewards link to access your Rewards
Account which will take you to KeyBank's rewards website (herein referred to as the "Rewards Website"). The only way to
electronically access the Rewards Website is through the Online Banking or KeyBank Business Online websites.
b. Telephone access. You may redeem Rewards Points by calling us at the number on the back of your Credit Card.
c. Limitations.
i. For certain Conversion Accounts, until your Credit Account has been issued new Credit Cards with multi -card
functionality, only the Primary Signer on the Credit Card will have the ability to access the Rewards Website
electronically and all other Signers of such Credit Card Account will need to access the Rewards Website through
telephonic access. Once your Credit Card Account has been provided multi-card functionality, all Signers will be able
to access the Rewards Website through electronic access.
ii. For all Business Credit Card Accounts that use KeyBank Business Online to access their Credit Card Account, only
the Primary Signer, and if applicable the administrator designated pursuant to Section II.4.a.ii below, will be able to
sign into the Rewards Website.
4. Signers and Primary Signers. A "Signer" always refers to an individual and not to an entity, organization, trust or other
business. Signers for Enrolled Products are further defined as follows:

a. Signer on an Eligible Credit Card Account. A Signer is an individual who is obligated to repay the outstanding amount
under an Eligible Credit Card. A Signer includes a borrower, co-borrower or guarantor of the Eligible Credit Card.
Additionally, if the Eligible Credit Card is a business credit card for which the business is the obligor, then signer shall also
include (i) the individual who is the legal representative of the business who applied for the business to receive the Eligib le
Credit Card and/or (ii) an administrative person the Business has designated to manage the Rewards Account including
viewing and redeeming Points earned by the business. Additionally, a Signer may be a person designated on KeyBank's
systems, books or records as being a Signer. An authorized user of an Eligible Credit Card who is not a Signer as defined in
this subsection is not a Signer for the purposes of this Agreement or the Program.
b. Primary Signer. For an Eligible Credit Card, the Primary Signer will be the borrower, and all co-borrowers and/or
guarantors will be considered other Signers.
III. Earning Points.
1. Generally. If you are in the Program you may earn Reward Points associated with your Enrolled Products.
a. Rewards Points associated with an Eligible Credit Card Account may be earned as set forth herein.
b. Transactions of authorized users of Enrolled Products may earn Rewards Points subject to the limitations set forth in this
Section III; however, such an authorized user will not be able to view or redeem Rewards Points as set forth in Section IV.
2. Guide. KeyBank publishes guides to set forth qualification criteria for earning Rewards Points for particular transactions and
events. The KeyBank Rewards Points Guide includes information concerning Activity and Bonus Points and general Rewards
Points, applicability to enrolled Eligible Credit Cards, and further qualification and earn rates as specified therein (hereinafter
referred to as the "Guide"). The Guide is specifically incorporated into and made a part of the Program Rules and may be modified
by KeyBank at any time. The Guide is available at www.key.com under the Rewards tab. KeyBank reserves the right, in its sole
discretion to determine (1) whether any product or service is a product eligible to earn Rewards Points, (2) whether any transaction,
product or service is eligible to earn Activity and Bonus Points (defined below), and (3) whether to provide any product or service to
any person or Customer. Important additional information regarding Activity and Bonus Event types, qualifications, and amount of
points earned, is contained in the Guide. Different Activity and Bonus Events may apply for Consumer and Business Customers,
and for Customers in KeyBank's Private Bank. Activity and Bonus Points may be earned for single transactions and for recurring
activity, and are subject to monthly caps. Please refer to the Guide for details.
3. Net Purchases.The term “Net Purchases” is defined as the dollar value of goods and services purchased with an Eligible Credit
Card, after the enrollment date, minus (a) any credits, returns, unauthorized charges, or other adjustments, as reflected on the
monthly statements, and (b) the value of all Excluded Transactions. For the avoidance of doubt, “Net Purchases” shall also e xclude
all annual membership fees, late payment fees, over-limit fees, insurance charges, finance charges, and any other card-related
service fees or charges.
4. Points for Enrolled Credit Card Accounts. KeyBank offers varying levels of Rewards Points depending upon your credit card
type. Subject to the terms of the Guide, Rewards Points will be awarded for the amount of credit card transaction activity.
Additionally, for Business Customers that also have an Eligible Checking Account with KeyBank, (regardless of enrollment status),
KeyBank will provide Rewards Points to a Signer on an Eligible Credit Card, upon opening of such Eligible Credit Card, so lon g as
the qualification criteria in the Guide are met.
5. Bonus Offers and Incentives. From time to time KeyBank may provide offers to Signers to (i) earn additional Rewards Points for
shopping at a particular retailer, or (ii) use Rewards Points to purchase a particular retailer's gift card at a discounted a mount (herein
collectively referred to as the "Bonus Offer(s)"). These Bonus Offers may be presented to Signers by KeyBank through various
venues, including without limitation, through KeyBank's Online Banking site, KeyBank's Rewards Website, or e-mail. Signers will be
able to turn off viewing of these offers in Online Banking and the Rewards website by following the instructions set forth on the
website. Additionally, Signers will be able to unsubscribe from the Bonus Offer e-mails by following the unsubscribe directions in any
such Bonus Offer e-mails. Once a Signer has accepted a Bonus Offer to earn Rewards Points by shopping at a particular retailer,
then the transactions of any Signer or authorized user of the account for which the Bonus Offer was accepted will be used to
determine whether the criteria have been met to earn the additional Rewards Points set forth in the Bonus Offer. Authorized users
will not be presented Bonus Offers.
6. Excluded Transactions. Excluded Transactions will not be included in the Reward Point calculation. The term Excluded
Transactions is defined as and includes: ATM cash disbursements, manual financial institution cash advances, KeyBank's Cash
Reserve Credit transactions, person-to-person money transfers, a quasi cash transaction including the purchase of traveler's
checks, foreign currency, money orders or convenience checks, gaming transactions, balance transfers, annual membership fees,
point-of-sale cash back transactions greater than the purchase amount, returned checks, and any credit, return or other adjustment
to your Enrolled Product. If you are enrolled in the Rewards Program, the term "Excluded Transactions" as defined above will apply
to the Reward Point calculation for transactions made using your Enrolled Product.
IV. Rewards Account and Point Redemption
1. Rewards Account Generally. Each Enrolled Product will have an associated internal rewards account established by KeyBank
to track the Rewards Points earned under the Program. If you are a Signer on an Enrolled Product you will have a rewards account
("Rewards Account"), which is a pass-through account that allows access to the Rewards Points earned relative to any Enrolled
Product for which you are a Signer (as set forth in Section II above). Your Rewards Account number will be available online and
elsewhere as determined by KeyBank from time to time. Your Rewards Account will allow you to view the available point balance
relating to any Enrolled Product for which you are a Signer. The available point balance is an aggregation of Rewards Points
available to any Signer, subject to certain exceptions, on an Enrolled Product for activities and behaviors engaged in by the Signers
of such accounts as set forth in Section III entitled "Earning Points". You shall have no interest in or rights to the Reward s Account
except as provided in these Program Rules, and the Rewards Account cannot be assigned or transferred by you. Any assignment or
transfer of the Rewards Account is null and void.

2. Rewards Account Mechanics. Your Rewards Account will allow you to view all of the Rewards Points which have been earned
relative to any Enrolled Product for which you are a Signer. You will be able to redeem any and all Rewards Points viewable in your
Rewards Account. An authorized user of an Enrolled Product will not be able to view or redeem Rewards Points. However, activity
of other Signers, who also may view and redeem from a common available point balance for which you both are Signers, may
reduce the availability of Rewards Points in your Rewards Account. All Signers on an Enrolled Product will be able to view and
redeem all Rewards Points earned for the Enrolled Products.
3. Redemption. Rewards Points must be redeemed by a Signer on an Enrolled Product. Except as specified in Section II.3 above,
to redeem Rewards Points for rewards, log into KeyBank's Rewards Website, or contact us at the number on the back of your Cre dit
Card.
4. Reservation of Rights. KeyBank reserves the right, in its sole discretion, to change how Rewards Points are earned and
allocated at any time.
5. Contacting Key. As set forth in Section II.3 above, your available Rewards Points balance is available at KeyBank's Rewards
Website, on KeyBank's Online Banking or KeyBank Business Online, as applicable, or by calling us at the number on the back of
your Credit Card. Additionally, the Rewards Points balance for the Enrolled Credit Card is available on the credit card billing
statement. Important information regarding the Rewards Program ("KeyBank Rewards Information") can be found
at www.key.com/rewards.
6. Redemption Allocation and Expiration.
a. Expiration Generally. If unused, the Rewards Points carry a 4-year expiration limitation based on the date the Rewards
Points were earned, and upon expiration all unused Rewards Points shall be forfeited immediately.
b. Redemption Allocation. Rewards Points redeemed and/or expired, if applicable, will be based on a first-in, first-out
process.
c. For October 2013 Conversion Accounts and October 2014 Conversion Accounts, converted Rewards Points will retain
the same expiration date as they had under your previous rewards program. For October 2016 Conversion Accounts,
converted Rewards Points will receive a four year expiration period for such Rewards Points commencing as of October 10,
2016. Notwithstanding the foregoing, Rewards Points earned with any of the following Eligible Credit Cards will not expire:
Key Private Bank Mastercard Credit Card, Key Private Bank World Elite Mastercard Credit Card and KeyBank Select World
Mastercard.
7. Transferability. Rewards Points earned are not transferable, have no cash value and cannot under any circumstances be used
as payment for any Customer account balance or any other liability or obligation you have to KeyBank.
8. No Partial Awards. No partial awards will be issued upon redemption of Rewards Points.
9. Value. Rewards Points and rewards have no value, are not refundable or exchangeable and cannot be used except in
accordance with these Program Rules and applicable terms and conditions of rewards suppliers. Your reward points have no cash
value until redeemed, are not your property and may not be transferred or assigned by agreement or operation of law. You have no
property rights or other legal interest in your reward points.
10. Availability. Rewards Points are available after transactions are posted and based on the specifications set forth in the Guide.
V. General Program Details
1. Continuing Eligibility. Eligibility is limited to KeyBank's Customers, whose Enrolled Products are in good standing. You will only
earn Rewards Points as long as KeyBank, in its sole discretion, determines that your Enrolled Products are acceptable to KeyB ank
and are eligible for participation in the Program. An ineligible account includes, without limitation, an account that is frozen,
restricted, closed, terminated, cancelled, expired, inactive, dormant, has a legal status, or an account that is subject to l itigation or
any adverse (or conflicting) claim of any third party, or is otherwise unenrolled.
2. Cancellation and Discontinuation. If you close your Credit Card, you will also be cancelling your enrollment in the Program, and
all unused accrued Rewards Points and rewards must be redeemed within 30 days of cancellation (the "Redemption Grace Pe riod")
by calling the number on the back of your Credit Card. Any unused accrued Rewards Points or rewards not redeemed during the
Redemption Grace Period will be forfeited. You may discontinue your participation in the Program at anytime without notice.
KeyBank's cancellation, change or suspension of the Program may result in the forfeiture of earned points and a change in the
redemption of any outstanding rewards.
3. Reservation of Rights. The Program and benefits are offered at the sole discretion of KeyBank. KeyBank reserves the right to
cancel, change or temporarily suspend the Program at any time without notice, including without limitation, to (a) terminate any
Customer's or Signer's membership in the Program for any reason; (b) reduce or eliminate all Rewards Points earned (but not yet
credited to your Rewards Account); (c) add to or modify the terms and conditions of these Program Rules, including, as to the
Rewards Program and the Guides, additions or modifications to the number of Rewards Points earned for any activity, deletions or
modifications to activities that earn Rewards Points, or modifications to qualifications for Activity and Bonus Events or Products; (d)
discontinue KeyBank's participation in the Program; (e) terminate or modify its Program; (f) modify the formula to calculate Rewards
Points earnings; and (g) in the event of any fraud or abuse of the Program privileges or violation of the Program Rules (including any
attempt to sell, exchange or otherwise transfer Rewards Points or any instrument exchangeable for the Program). In regard to the
Rewards Program, KeyBank reserves the right, in its sole discretion, to determine whether any transaction, product or service is
eligible to earn Rewards Points, and whether to allow any person or Customer to undertake any transaction or to receive any
product or service.
4. Governing Law. These Program Rules and Program are governed by the laws of the State of Ohio, without regard to its conflicts
of law principles. The Program is void where prohibited by federal, state or local law.

5. Availability Limitations. Airline tickets, travel rewards packages, merchandise rewards, travel vouchers, gift certificates/gift
cards and other rewards are subject to availability and certain restrictions and fulfillment fees apply.
6. Signer Disputes. KeyBank is not responsible for, and has no duty, obligation or liability regarding any disputes between joint
Signers of an Enrolled Product (or authorized users of a Credit Card) relating to Rewards Points ownership, accessibility and /or
redemption rights under the Program.
7. Liability. Every effort has been made to ensure that the information provided is accurate. KeyBank is not responsible for errors or
omissions.
8. Taxes. When you redeem Rewards Points for a reward, you and the merchant are responsible for compliance with all laws
related to the reward, including the payment and collection of any federal, state, and local taxes.
9. Travel Taxes and Fees. You are responsible for payment of any passenger facility charges, air segment taxes, departure taxes,
customs fees, baggage charges, security taxes or any other charges assessed by governmental entities or airline company as a
result of travel under the Program, as well as any shipping, courier, fulfillment or certificate fees associated with the Pro gram.
10. Correspondence/Mailing. KeyBank shall not be responsible for any correspondence by you that is lost or delayed in the mail.
All travel tickets, travel packages, merchandise and other rewards will be sent to your address on file at KeyBank or otherwi se in
accordance with your instructions. Merchandise sh ipments cannot be made to a post office box.
11. Finality. All questions regarding accrual of rewards or the fulfillment of rewards shall be resolved by KeyBank, and its decision
will be final. All questions or disputes regarding use of gift certificates/gift cards shall be resolved by the supplier or issuer of the gift
certificate/gift card by contacting customer service department disclosed with the certificate/card.
12. Release. Should KeyBank decide to terminate the Program, and the acceptance and use of the Program, Customer
hereby releases, discharges, and holds harmless KeyBank, Mastercard International Incorporated, doing business as
Mastercard Worldwide, and its affiliates and subsidiaries, (collectively, called "Mastercard"), and their respective
subsidiaries, affiliates, employees, officers, directors, successors and assigns from all claims, damages or liability
including but not limited to physical injury or death, arising out of participation in the Program.
13. Limitation of Liability. Neither KeyBank, Mastercard nor any other entity associated with the Program shall have any liability
arising from, or related to, such rewards of the Program, except as expressly stated herein. If you are denied a benefit of the
Program to which you are entitled, liability of KeyBank and Mastercard shall be limited to your earned portion of the benefit. In no
event shall KeyBank or Mastercard be liable to you for any indirect, incidental, consequential, special or punitive damages a rising
from this Program or performance of any obligations hereunder, or any other action or omission by it, even if such party is informed
or is otherwise aware or should be aware of the possibility or likelihood of such damages. KeyBank makes no warranty and here by
disclaims any and all representations or warranties, express or implied, regarding any subject matter contemplated by these
Program Rules, including any implied warranty of merchantability or fitness for a particular purpose or implied warranties arising
from the course of dealing or course of performance.
14. Third Parties. Suppliers of goods and services are independent contractors and are neither agents nor employees of KeyBank,
Mastercard, or any of their affiliates; or any group, organization, or entity endorsing a credit program by us. We neither offer,
endorse, nor guarantee any of the goods, services, information, or recommendations provided by third parties to you in connection
with the Program.
15. Intellectual Property. The KeyBank name, Key mark design and logo are registered trademarks of KeyCorp, an Ohio
corporation. Mastercard and World Mastercard are registered trademarks of Mastercard International Incorporated and are used by
us pursuant to a license. All other company, product, and service names may be trademarks or service marks of others and their
use does not imply endorsement or an association with this Program.
VI. Airline, Hotel, Car Rental & Travel Packages
1. You may redeem Rewards Points for travel related items such as airline tickets, hotel stays, car rentals and travel packages
(herein "Travel Rewards"). You may redeem Rewards Points for Travel Rewards by selecting the "Travel" icon ("Travel Tool") on
the KeyBank Rewards Website, or by calling the phone number listed on the back of your card. The Travel Tool has additional
specific terms and conditions relating to the booking and use of Travel Rewards, which terms of use must be reviewed and
accepted prior to each redemption of a Travel Reward. As the Travel Tool terms of use (also known as terms and conditions)
may change more frequently than these KeyBank Rewards Program Terms and Conditions, you will be required to acknowledge
your review and acceptance of the Travel Tool terms and conditions before completing a redemption of a Travel Reward. When you
make a reservation using the Travel Tool, you will be subject to the rules of each company, agent or other entity supplying a Travel
Reward (herein a "Supplier"). Each Supplier sets its own rules as to booking, cancellations, changes and refunds, including any
fees relating to same. Supplier fees (such as for booking cancellation, changes or refunds) may be required to be paid via credit
card, or other another payment medium selected by Supplier. You must carefully read the rules of each Supplier before b ooking as
certain Suppliers may not permit cancellations, changes or refunds. Additionally, any redemption of a Travel Reward is also
governed by these general KeyBank Rewards Program Terms and Conditions. In the event of a conflict, the Travel Tool terms and
conditions will control the governance of a transaction involving Travel Rewards.
2. Prohibited Use. As a condition of your use of the Travel Tool and/or KeyBank's Rewards Website, you warrant that you will not
use the Travel Tool or KeyBank's Rewards Website for any purpose that is unlawful or prohibited by these terms, conditions, and
notices.
3. KeyBank is not responsible for products or services offered by other companies.
VII. Merchandise
1. KeyBank may make substitutions of equal or greater value when necessary without notification.

2. Merchandise rewards include all taxes, standard shipping, handling and delivery charged. Merchandise cannot be shipped to
P.O., APO, or FPO boxes, or outside the contiguous United States.
3. Returns are only accepted for merchandise that is damaged, defective, or incorrectly shipped. You must notify us within 48 hours
of delivery to start a return. Applicable items must be returned, in the original packaging, within 30 days from receipt of d elivery for
credit to your Rewards Account or shipment of replacement item(s).
4. Delivery of merchandise will be made by ground delivery service-signature required or first-class mail. Please allow four to six
weeks from time of order.
5. Any additional shipping costs will be your responsibility and will be charged to the Eligible Credit Card.
VIII. Gift Certificates/Gift Cards
1. Gift certificates/gift cards have no value except when used in accordance with these Program Rules and applicable terms an d
conditions of participating suppliers or card issuers.
2. Gift certificates/gift cards must be surrendered at redemption, are not refundable, exchangeable, unless required by appli cable
law. Gift certificates/gift cards cannot be used against Customer's outstanding credit account balan ces. Gift certificates/gift cards
may not be resold.
3. KeyBank may make substitutions of equal or greater value when necessary.
4. KeyBank and participating suppliers are not responsible for replacing lost, stolen or expired gift certificates/gift cards.
5. Gift certificates/gift cards use is subject to the terms and conditions printed thereon.
6. Gift certificates/gift cards are valid only at participating suppliers through the expiration date printed on the gift certificate/gift card.
7. Delivery of gift certificate/gift card will be made by ground delivery service-signature required or first-class mail or email. Please
allow three to four weeks from time of order for direct mail. Expedited or insured delivery may be available on request. If you elect
expedited, express, or international shipping, additional fees may apply.
8. Gift certificates/gift cards may not be combined with any other promotional offers from KeyBank or participating suppliers.
9. In the event the goods and services purchased are less than the face value of the gift certificate/gift card redeemed, the policy of
the supplier will determine whether credit or gift certificate/gift card value for the difference will be given.
10. Gift certificates/gift cards as rewards are void where prohibited by law.
11. Issuers of gift certificates/gift cards are solely responsible for compliance with any legal or regulatory requirements g overning gift
certificates/gift cards.
IX. Cash Back
1. You may redeem Rewards Points for cash back to be applied to your Enrolled Credit Card. You may elect to redeem your
Rewards Points either as a statement credit to your Account or as an electronic deposit into any eligible checking or savings
account at KeyBank. A statement credit will reduce your Account balance. Statement credits appear on your billing statement as an
adjustment and not as a payment, so you must continue to pay your minimum payment due each month. Receipt of a statement
credit does not affect your responsibility to pay your minimum payment, as shown on your billing statement.
2. Cash Back is available only for accounts in good standing as determined by KeyBank in its sole discretion. Any Signer who has
registered is eligible to choose Cash Back as a Rewards Points redemption option, subject to the restrictions set forth in this Section
IX.
3. Cash Back will post to the account you selected within 5-7 business days from the date of redemption and will appear on your
monthly statement.
4. It may take up to two (2) business days after enrollment for an account to be eligible as a selection option for the Cash Back
feature.
5. You will be responsible for taxes related to Cash Back, if any.
6. You may only redeem Cash Back in increments set forth in the web site options available at the time of redemption.
Schedule II.2
I. KeyBank Original Origination Credit Cards
A.

Consumer. Any Credit Card issued by KeyBank on or after May 24, 2013, and bearing a plastic number with the first 6
digits of 524924, 519945, 552356, and bearing the name KeyBank Key2More Rewards Mastercard Credit Card, Key Private
Bank Mastercard Credit Card and KeyBank Platinum Mastercard Credit Card

B.

Business. Any Credit Card issued by KeyBank on or after May 24, 2013, and bearing a plastic number with the first 6 digits
of 519731 including KeyBank Business Rewards Mastercard Credit Card

II. KeyBank Conversion Credit Cards. All of the credit card Accounts listed in this Section II shall be deemed a Conversion
Account.
A.

October 2013 Conversion Accounts. Effective October 4, 2013 the following credit cards were converted from a separate
rewards program into the KeyBank Rewards Program (herein collectively referred to as the "October 2013 Conversion

Accounts"):
(1) KeyBank World Mastercard with Rewards
(2) KeyBank Mastercard with Rewards
(3) Key Private Bank World Elite Mastercard
(4) Key Private Bank World Mastercard
(5) KeyBank Business Travel Rewards Mastercard
(6) KeyBank Business Rewards Mastercard bearing a plastic number with the first 6 digits of 547538
(7) KeyBank Key2More Rewards Mastercard bearing a plastic number with the first 6 digits of 548029, 552373 or 548853
B.

October 2014 Conversion Accounts. Effective October, 2014 the following credit cards were converted from a separate
rewards program into the KeyBank Rewards Program(herein collectively referred to as the "October 2014 Conversion
Accounts"):
(1) KeyBank Platinum Mastercard with Rewards bearing a plastic number with the first 6 digits of 521515
(2) KeyBank Select World Mastercard bearing a plastic number with the first 6 digits of 552470
(3) KeyBank Business Mastercard with Rewards bearing a plastic number with the first 6 digits of 519726 or 519727

C.

October 2016 Conversion Accounts. Effective October 10, 2016, the following credit cards were converted from a
separate rewards program into the KeyBank Rewards Program (herein collectively referred to as the "October 2016
Conversion Accounts"):
(1) KeyBank World Mastercard Credit Card bearing a plastic number with the first 6 digits of 552437
(2) KeyBank Platinum Rewards Mastercard Credit Card bearing a plastic number with the first 6 digits of 532914 and
529079
(3) KeyBank Rewards Business Mastercard Credit Card bearing a plastic number with the first 6 digits of 552743

All of the credit cards listed on this Schedule II.2. will be deemed an Eligible Credit Card. Conversion Accounts will have the same
terms and conditions of all other Eligible Credit Cards under the Program unless specifically designated otherwise. The credit card
names for the Conversion Accounts are listed separately in the Points Guide.

Version Effective April 16, 2021.
(ID 2017-512)

